COMMODITY FUTURES TRADING COMMISSION

   SEMIANNUAL REPORT
         OF THE


  OFFICE OF THE
INSPECTOR GENERAL




     FOR THE PERIOD NDING September 30, 2011
                           u.s. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                       www.cftc.gov


   Office of the                               October 31, 2011
Inspector General




      TO:            The Commission                .   0
      FROM:          A. Roy Lavik    Q rz ~
                     Inspector General

      SUBJECT:       Semiannual Report of the Office of the Inspector General


             Attached is the Office of the Inspector General's Semiannual Report (SAR) for the period
      from April 1, 2011 through September 30, 2011. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended. 5 USC
      App.3 sec. 5.

              The Dodd-Frank Act altered the relationship of the designated Federal entity Offices of
      Inspector General with the agency head by establishing that "head" of a designated Federal entity
      means "the board or commission of the designated Federal entity." P.L. 111-203, Titlc IX,
      Subtitle I, sec. 989B, 124 Stat. 1945 (codified at 5 USC App. 3 sec. 8G(a)(4)). In accordance
      with the Dodd-Frank Act, we submit this report to the Chairman and to each Commissioner.

              Under section 5(b) of the IG Act, the SAR shall be transmitted to the appropriate
      committees or subcommittees of the Congress within thirty days after receipt of the Semiannual
      report, together with a report by the head of the establishment conforming to the requirements of
      section 5(b) of the IG Act.

              I appreciate your continuing support of this office.
Recipients:

Gary Gensler                         Bart Chilton
Chairman                             Commissioner

Mark P. Wetjen                       Scott D. O'Malia
Commissioner                         Commissioner

Jill E. Sommers
Commissioner

Attachment:

Semiannual Report for the CFTC OIG
              OFFICE OF THE INSPECTOR GENERAL
           COMMODITY FUTURES TRADING COMMISSION

                                   SEMIANNUAL REPORT
                                  FOR THE PERIOD FROM
                           April 1, 2011 through September 30, 2011




                             EXECUTIVE SUMMARY
        This semiannual report is issued by the Office of the Inspector General (OIG) for the
Commodity Futures Trading Commission (CFTC) pursuant to the Inspector General Act of
1978, as amended. It summarizes OIG's activities and accomplishments for the period April 1,
2011, through September 30, 2011. During this period, OIG completed one investigation,
completed one review, completed a procurement, began an investigation, and began the Fiscal
Year (FY) 2011 contract audits ofCFTC's financial statements and the Customer Protection
Fund's financial statements. OIG reviewed proposed enforcement actions and rules proposed by
CFTC and by regulated entities, participated in training, visited CFTC field offices, and
participated in Government-wide OIG professional and cooperative meetings and training. One
investigation was closed during the reporting period. One investigation, initiated in the last
reporting period, remained pending at the close of this reporting period. No significant
problems, abuses or deficiencies regarding CFTC programs and operations were identified
during this reporting period.

        Highlights ofOIG's completed and ongoing audit, inspection, review, investigative and
other projects include:

•   OIG completed two reports addressing the cost-benefit analyses performed by the Agency in
    connection with proposed rulemakings undertaken pursuant to the Dodd-Frank Act. OIG
    examined in detail the cost-benefit analyses published in connection with eight proposed
    rulemakings. Overall, our examinations indicated that the cost-benefit analyses in most cases
    were largely drafted, supervised, or controlled by attorneys, with input from economists at
    times lacking or disregarded. We recommended that the cost-benefit analyses be more
    robust, with the economists given a greater role, and are pleased with subsequent guidance
    for cost-benefit analyses issued by the Agency, as well as the cost-benefit analysis to apply
    to the final rules published in order to implement Dodd-Frank.

•   OIG began its contract audit ofCFTC's FY 2011 financial statements.

•   OIG began its FY 2011 review ofCFTC's implementation of the Federal Managers'
    Financial Integrity Act (FMFIA)

•   OIG began its FY 2011 review ofCFTC's implementation of the Federal Information
    Security Management Act (FISMA)
•   In accordance with the Dodd-Frank Act, OIG began a contract audit of the CFTC Customer
    Protection Fund.

•   DIG began an inspection into record retention practices by the Division of Enforcement
    pertaining to investigative records. This inspection should enable us to ascertain, over the
    review period, whether CFTC-DOE policies and procedures complied with National
    Archives and Records Administration (NARA) guidelines for retaining/destroying
    investigative files.

•   OIG began an inspection into a disclosure of trade information to Congress in 2008. This
    inspection should enable us to ascertain the Commissions' procedures and controls
    associated with the disclosure of trade information in 2008 (and to review any revisions since
    then), to determine whether existing procedures were adequate and followed.

•   OIG began an investigation of anonymous allegations pertaining generally to technical
    aspects of the proposed rulemaking addressing position limits for swaps, and alleging poor
    management of the rulemaking team.

•   OIG hired an experienced auditor and implemented the recommendations reported in the peer
    review of the OIG audit function issued by the Federal Election Commission OIG on March
    31,2011.




                                                 11
                                             TABLE OF CONTENTS

EXECUTIVE SUMMARY ..........•................................................•..........•...•..................................• i

INDEX OF IG ACT REPORTING REQUIREMENTS .............................................•.•................. v
INTRODUCTION .....................................•...•..•...•••.....................................•.....................•..•......... 1

   CFTC PROGRAMS AND OPERATIONS .........•................................................................•..•........•..... 1
   OIG RESPONSIBILITIES .•..•.•....................•...................................................•.•............................... 1
   OIG RESOURCES ......................•........................................................................•.•..•.•................... 3

COMPLETED AUDITS, INSPECTIONS, EVALUATIONS, REVIEWS AND OTHER
PROJECTS .........................•..•.•..................•.....•..............................•.........•....•...•.•.........................• 3

   COMPLETED AUDITS ....................•......•.••....•...................•••...•.••.....•.............................•.....•.......... 3
   COMPLETED INSPECTIONS, EVALUATIONS, REVIEWS AND OTHER PROJECTS ..•.•..•...................•... 3

IN-PROCESS AUDITS, INSPECTIONS, EVALUATIONS, REVIEWS AND OTHER
PROJECTS .........................••••.•..................•............................•...•.•..•..•..............................•....•....... 3

    CURRENT AUDITS ........................•...............•..•..•.........•..........................•.•..•...•....................••.•••.• 3
       Audit o/CFTC Financial Statements for Fiscal Year 2011                                                                                  3
       Audit ofCFTC Customer Protection Fund/or Fiscal Year 2011                                                                               4
   IN-PROCESS INSPECTIONS, EVALUATIONS, REVIEWS AND OTHER PROJECTS                                                                             5
       Review o/Compliance with the Federal Managers' Financial Integrity Act, FMFIA                                                           5
       Evaluation 0/ the Federal Information Security Management Act at CFTC          '.'                                                      5
       Inspection ofDivision ofEnforcement's Investigative Records Disposition Policy                                                          5
AUDIT REPORTS AND REVIEWS OVER SIX MONTHS OLD                                                                                                  6
   CORRECTIVE ACTION NOT COMPLETED ................•................................................................••..... 6
   CORRECTIVE ACTION COMPLETED ........................•...................................................•.•................ 6
   MANAGEMENT DECISION NOT MADE ....................................................•...........................•.......... 6

INVESTIGATIONS .....................•.................•..•............................................................................. 6

   COMPLETED INVESTIGATIONS                                                                                                                    6
   ONGOING INVESTIGATIONS                                                                                                                      7
       Investigation Involving the Office ofProceedings                                                                                        7
       Investigation Involving Position Limits Rulemaking                                                                                      7
SUMMARY OF MATTERS REFERRED TO PROSECUTORIAL AUTHORITIES                                                                                       7
CONGRESSIONAL INQUIRIES                                                                                                                        8
   A REVIEW OF COST-BENEFIT ANALYSES PERFORMED BY THE COMMODITY FUTURES TRADING
   COMMISSION IN CONNECTION WITH RULEMAKINGS UNDERTAKEN PURSUANT TO THE DODD-
   FRANK ACT                                                                     8
   AN INVESTIGATION REGARDING COST-BENEFIT ANALYSES PERFORMED BY THE COMMODITY
   FUTURES TRADING COMMISSION IN CONNECTION WITH RULEMAKINGS UNDERTAKEN
   PURSUANT TO THE DODD-FRANK ACT                                               10

                                                                       iii
LEGISLATIVE, REGULATORY AND RULE REVIEWS                                                                                          12
 INTRODUCTION AND SUMMARy ••..•..•••.••.••.••.••........•.••••••.•••••••••.•.•....••••.....••••..•.••••....•.•........•••••• 12
 RULE REVIEWS INITIATED IN PREVIOUS REpORTING PERIODS......•.••..•.••.•••.•.•......•.••.••.••••.•.•...... 13
 RULE REVIEWS INITIATED THIS REpORTING PERIOD ..•••••.•••............•.......•.•..•••.•.•..•..•.............•..• 13
 LEGISLATIVE ACTIVITIES ...........•••..........•...•.•.......................•..........................•.••.•..•....•..•.•....... 13

OTHER REVIEWS                                                                                                                     13
 OTHER REVIEWS AND ACTIVITIES..•.............•..............•....................•...•....................•..•......•...... 14

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD CONCERNING
REQUESTS FOR INFORMATION OR ASSISTANCE                                                                                            14
REVISED MANAGEMENT DECISIONS                                                                                                      14
INSPECTOR GENERAL DISAGREEMENT                                                                                                    15
GAO LIAISON                                                                                                                       15
STRATEGIC PLAN FOR THE OFFICE OF THE INSPECTOR GENERAL                                                                            15
 INVESTIGATIVE AGENDA ...........•..•.........•••...............................•................................•...••..•.....•.. 15
 LEGISLATIVE AND REGULATORY REVIEW AGENDA .......................•.............................•......•.•.•.. 16
 AUDIT, INSPECTION, EVALUATION AND REVIEW AGENDA ......................•..........•....••................. 16
    Introduction                                                                                                                  16
    Annual Audit                                                                                                                  17
    Annual Review and Evaluation                                                                                                  17
    Other Audits, Inspections, Evaluations, Reviews and Projects                                                                  18
 RESOURCES REQUIRED ....•....•.•..••..•.........•.....•.••..•..••...............................•.•....•.•..•.•........•..........• 18

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                                                                    18
TABLE I-REPORTS ISSUED WITH QUESTIONED COSTS                                                                                      19
TABLE 2 _ REPORTS ISSUED WITH RECOMMENDATIONS                                                                                     20




                                                                IV
                    INDEX OF IG ACT REPORTING
                          REQUIREMENTS

Section 4(a)(2)       Review of legislation and regulations                          12

Section 5(a)(l)         Significant problems, abuses and deficiencies                 .i

Section 5(a)(2)         Recommendations with respect to significant problems          .i

Section 5(a)(3)        Significant recommendations that have not been completed       6

Section 5(a)(4)        Matters referred to prosecutorial authorities                  7

Section 5(a)(5)        Summary of instances where information was refused            14

Section 5(a)(6)'      Completed audit, inspection and evaluation reports              3

Section 5(a)(7)        Significant reports                                            3

Section 5(a)(8)        Statistical Table-Questioned Costs                            19

Section 5(a)(9)       Statistical Table-Funds Recommended for Better Use             20

Section 5(a)(1 0)      Audit, inspection and evaluation reports lacking
                       management decision                                            6

Section 5(a)(II)      Significant revised management decisions                       14

Section 5(a)(1 2)     Significant management decisions where the IG disagrees        15

Section 5(a)(l3)     .Information described under the Federal Financial Management
                      Improvement Act of 1996                                         4

Section 6(b)(2)       Summary of reports to Chairman where assistance was refused    .l4




                                             v
               OFFICE OF THE INSPECTOR GENERAL
            COMMODITY FUTURES TRADING COMMISSION
                                   SEMIANNUAL REPORT
                                  FOR THE PERIOD FROM
                               April 1,2011 - September 30,2011

                                    INTRODUCTION
1.      eYre Programs and Operations
        Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992 and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through Fiscal Year 2005 with the passage of the Commodity Futures Modernization
Act of 2000 (CFMA). In May of2008, Congress reauthorized the CFTC through Fiscal Year
2013. On July 21,2010, the President signed into law the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act), P.L. 111-203, which expanded CFTC'sjurisdiction
and authorities.

        The CFTC is responsible for fostering the economic utility of futures markets by
encouraging their competitiveness and efficiency, ensuring their integrity and protecting market
participants against manipulation, abusive trade practices and fraud. Through effective oversight
regulation, the CFTC enables the commodity futures markets better to serve their vital function
in the nation's economy-providing a mechanism for price discovery and a means of offsetting
price risks. The new Dodd-Frank Act authorizes the CFTC to regulate swap dealers, increase
transparency and improve pricing in the derivatives marketplace, and lower risk to the American
public.

         The CFTC operating divisions are: Office of the Chairman, Office of the Executive
Director, Office of General Counsel, Office of the Chief Economist, Division of Clearing and
Risk, Division of Data and Technology, Division of Enforcement, Office of International Affairs,
Division of Market Oversight, and Division of Swap Dealer and Intermediary Oversight. In
addition to its headquarters office in Washington, DC, the CFTC maintains offices in Chicago,
Illinois; Kansas City, Missouri; and New York, New York.

2.      OIG Responsibilities

       The CFTC OIG was created in 1989 in accordance with the 1988 amendments to the
Inspector General Act of 1978 (p.L. 95-452). OIG was established as an independent unit to:

•    Promote economy, efficiency and effectiveness in the administration of CFTC programs and
     operations and detect and prevent fraud, waste and abuse in such programs and operations;

•    Conduct and supervise audits, inspections, evaluations, reviews, projects and, where
     necessary, investigations relating to the administration ofCFTC programs and operations;


                                                1
•   Review existing and proposed legislation, regulations and exchange rules and make
    recommendations concerning their impact on the economy and efficiency of CFTC programs
    and operations or the prevention and detection of fraud and abuse; and

•   Keep the Chairman and Congress fully informed about any problems or deficiencies in the
    administration of CFTC programs and operations and provide recommendations for
    correction of these problems or deficiencies.

        It is the duty and responsibility of the GIG to conduct, supervise and coordinate audits
relating to CFTC programs and operations in accordance with generally accepted government
auditing standards. OIG is also charged with the duty and responsibility to recommend changes
to existing and proposed CFTC programs and operations to promote economy, efficiency and
effectiveness and to prevent and detect fraud and abuse.

        The purpose of OIG audits, inspections, evaluations, reviews and projects generally is to
ensure that:

•   Funds have been expended in a manner consistent with related laws, regulations and policies;

•   Resources have been managed effectively and efficiently;

•   Stipulated program objectives have been achieved;

•   Agency operations have not been subject to improper influence or corruption; and

•   Resources have been safeguarded.

        DIG operates independently of the Agency and has not experienced any interference from
the CFTC Chairman in connection with the conduct of any investigation or audit, inspection,
evaluation, review or project, and our investigations have been pursued regardless of the rank or
party affiliation of the target. DIG has also conducted audits, inspections, evaluations, reviews
and other projects without interference where OIG has perceived the need to recommend
improvement to futures regulation efforts, again without regard to the party affiliation of any
Chairman. l

        CFTC is a designated Federal entity (DFE) under the IG Act of 1978, as amended. 5
USC App. 3 sec. 8G(a)(2). The Dodd-Frank Wall Street Reform and Consumer Protection Act
altered the relationship between the DFE Inspectors General and the agency head by clarifying
that "head" of a DFE means "the board or commission of the designated Federal entity." P.L.
111-203, Title IX, Subtitle I, sec. 989B, 124 Stat. 1945 (codified at 5 USC App. 3 sec. 8G(a)(4)).
The effective date of this provision was July 22,2010. The DIG has not experienced any
interference from the head of the CFIC in the conduct of its official duties.


I The Inspector General Act of 1978, as amended, states: "Neither the head of the establishment nor the officer next
in rank below such head shall prevent or prohibit the Inspector General from initiating, carrying out, or completing
any audit or investigation...." 5 U.S.C. App. 3 sec. 3(a).

                                                         2
3.     OIG Resources

        OIG consists of the Inspector General, a part-time Supervisory Senior Auditor hired at
the close of the prior reporting period, a full-time Senior Auditor, an Attorney-Advisor and a
secretary. The Inspector General assumed his position on October 7, 1990. The part-time
Supervisory Senior Auditor joined the office in March 2011, the full-time Senior Auditor joined
the office in 1999, and the Attorney-Advisor joined in 2007.



     COMPLETED AUDITS, INSPECTIONS, EVALUATIONS,
            REVIEWS and OTHER PROJECTS

1.     Completed Audits

       No audits were completed during this reporting period.

2.     Completed Inspections, Evaluations, Reviews and Other Projects

       On May 4,2011, we received a request from 10 Senators seeking our review ofCFTC's
cost-benefit analyses provided in connection with an additional four rules proposed under Dodd-
Frank. The 10 Senators requested similar reviews of the economic analysis devoted to Dodd-
Frank rulemakings from the Inspectors General for the Federal Reserve Baord, the Department
of Treasury, the Securities and Exchange Commission, and the Federal Deposit Insurance
Corporation. CFTC OIG completed its review on June 15,2011, and it is discussed fully under
Congressional Inquiries infra at page 8.




      IN-PROCESS AUDITS, INSPECTIONS, EVALUATIONS,
              REVIEWS and OTHER PROJECTS

1.     In-process Audits

a. Audit of CFTC Financial Statements for Fiscal Year 2011

Background

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to obtain an independent financial
statement audit each year. During the reporting period, the Inspector General selected an
independent public accountant (lPA) to render an opinion on the agency's financial statements
for Fiscal Year 2011 in accordance with generally accepted auditing standards, Government
Auditing Standards, OMB Bulletin 01-02 and OMB Circular A-136.

                                                3
Audit Objective

The objective of this audit is to render an opinion on the CFTC's financial statements and report
on internal controls and compliance with laws and regulations.



       In May 2011, the Inspector General selected an independent public accountant to conduct
the CFTC Financial Statement Audit. The Fiscal Year 2011 audit began in June with an entrance
conference with senior agency managers, the OIG and representatives from the IPA. Further
meetings and reviews have taken place throughout this reporting period while work on the audit
is ongoing. The final audit report is to be delivered to the Office of the Inspector General in
November 2011.2

b. Audit of CFTC Customer Protection Fund for Fiscal Year 2011

Background

        Section 745(g)(5)(I) of the Dodd-Frank Act requires the Agency to submit to Congress a
yearly report on the Commission's whistleblower award program that includes a complete set of
audited financial statements, including a balance sheet, income statement, and cash flow
analysis. The OIG is undertaking this required audit.

Audit Objective

The objective of this audit is to render an opinion on the CFTC's Customer Protection Fund's
financial statements and report on the Customer Protection Fund's internal controls and
compliance with laws and regulations. As part of this audit, the OIG will also review the
agency's report to select Congressional committees on activities of the Customer Protection
Fund during the previous year.



Prior to the close of the reporting period CITC OIG contracted with an independent public
accounting finn to perform this audit, and the audit was in progress at the close of the reporting
period. The audit report is scheduled to be issued by October 24,2011.




2 The IG Act and the Federal Financial Management Improvement Act of 1996 (FFMIA) require the Inspectors
General of certain agencies to report "instances and reasons" when the Agency has not met intermediate target dates
established in a remediation plan to bring the Agency's financial management system into substantial compliance
with the FFMIA. CFTC is not subject to the FFMIA; however, it voluntarily seeks to comply with its
requirements. During this reporting period, there were no events giving rise to a duty to report under FFMIA.


                                                         4
2.     In-process Inspections, Evaluations, Reviews and Other Projects

a. Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA

        The Federal Managers' Financial Integrity Act of 1982 requires federal managers to
establish a continuous process for evaluating, improving, and reporting on the internal control
and accounting systems for which they are responsible. OMB Circular A-I23, revised December
2004, "Management Accountability and Control," is the implementing guidance for FMFIA.
The annual FMFIA report will be included in the CFTC Annual Performance Report (APR).



         The Office of the Inspector General is in the process of receiving and reviewing draft
internal control reviews produced by agency staff, and will provide comments to the originating
divisions. DIG will report its evaluation of the final FMFIA documents in its annual assurance
letters to the Chairman which will be included in the APR.


b. Evaluation of Compliance with the Federal Information Security Management Act
      atCFfC

       The Federal Information Security Management Act (FISMA) was enacted on December
17, 2002. FISMA requires the Office of the Inspector General to perform annual independent
evaluations of the information security program and practices of the agency.



       The OIG is currently completing its evaluation of the agency's FISMA related documents
and will submit its assessment along with the agency's documents to the Office of Management
and Budget by November 1, 2011.


c. Inspection of the Division of Enforcement's Investigative Records Disposition Policy

Background

The CFTC Division of Enforcement (CFTC-DOE) is authorized to conduct investigations of
industry participants for non-compliance with the Commodity Exchange Act and product related
malfeasance. It is incumbent upon CFTC-DOE management to assure that all enforcement
records are disposed of as authorized under record retention schedules approved by the National
Archives and Records Administration.




                                               5
Objective

This inspection will enable us to ascertain, over the review period (January 1,2008 to August 1,
2011), whether the CFTC-DOE policies and procedures complied with National Archives and
Records Administration guidelines for retaining/destroying investigative files.



At the close of the reporting period this inspection was ongoing.




     AUDIT REPORTS and REVIEWS OVER SIX MONTHS OLD

1.     Corrective Action not Completed

       There were no instances of audit reports over six months old where corrective action had
not been completed.


2.      Corrective Action Completed

        There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.


3.     Management Decision not Made

       There were no instances of a report issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.



                                   INVESTIGATIONS

1.      Completed Investigations

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commissionfs employees and other
sources concerning the possible existence of an activity constituting a violation of law, rules or
regulations, or mismanagement, abuse of authority, or gross waste of funds, or a substantial and
specific danger to the public health and safety. At the end of the prior reporting period,
significant staff resources were devoted to an investigation requested by the Chairman of the
House Agriculture Committee and the Chairman of the Subcommittee on General Farm

                                                 6
Commodities and Risk Management regarding cost benefit analyses under the Dodd-Frank Act.
OIG issued its report of investigation on April 15, 2011, and it is discussed fully under
Congressional Inquiries infra at page 8.


2.      Ongoing Investigations

        The CFTC OIG does not comment on all ongoing investigations. Ongoing investigations
that have become public, through the press or otherwise, will be discussed in semi-annual
reports, absent exigent circumstances.

        Investigation Involving the Office of Proceedings During the prior reporting period, we
received an allegation of misconduct involving staff and management in the Office of
Proceedings. Due to an internal conflict within the OIG, as well as resource concerns, we
reached out to the OIG investigative community and obtained consent from the Treasury
Inspector General for Tax Administration (TIGTA) to conduct this investigation. The CFTC
entered into a formal Economy Act3 agreement with TIGTA, and the investigation was ongoing
at the close of this reporting period.

        Investigation Involving Position Limits Rulemaking During this reporting period we
received two anonymous allegations pertaining to the position limit rulemaking currently being
undertaken by the CFTC pursuant to the Dodd-Frank Act. At the close of the reporting period,
the rule was not yet final. After receiving the allegations, CFTC OIG began interviews in order
to review or survey the position limits rulemaking. This inquiry was ongoing at the end of the
reporting period.



                  SUMMARY OF MATTERS REFERRED TO
                     PROSECUTORIAL AUTHORITIES

        No matters were referred to prosecutorial authorities during this reporting period.




3 The Economy Act (31 U.S.C. 1535) authorizes agencies to enter into agreements to obtain supplies or services by
interagency acquisition.

                                                        7
                         CONGRESSIONAL INQUIRIES

        The Inspector General continues to be involved in legislative activities pertaining to both
the CFTC and the IG community. The IG serves on the legislation committee for the Council of
Inspectors General on Integrity and Efficiency, which discusses and provides guidance on
pending legislation affecting the IG community. At the end of the prior reporting period
significant staff resources were devoted to an investigation requested by the Chairman of the
House Agriculture Committee and the Chairman of the Subcommittee on General Fann
Commodities and Risk Management. The investigation addressed the cost-benefit analyses
issued in connection with four ofCFTC's proposed rulemakings under the Dodd-Frank Act, and
OIG completed this investigation on April 15, 2011.

       On May 4,2011, OIG received a request from 10 Senators seeking our review ofCFTC's
cost-benefit analyses provided in connection with an additional four rules proposed under Dodd-
Frank. The 10 Senators additionally requested reviews of the economic analyses devoted to
Dodd-Frank rulemakings from the Inspectors General for the Federal Reserve Board, the
Department of Treasury, the Securities and Exchange Commission, and the Federal Deposit
Insurance Corporation. CFTC OIG completed its review on June 15,2011.

1. A Review of Cost-Benefit Analyses Performed by the Commodity Futures Trading
Commission in Connection with Rulemakings Undertaken Pursuant to the Dodd-Frank
Act

Background

        CFTC OIG reviewed the formulation of cost benefit analyses for four notices of pr~posed
rulemakings recently published by the Commodity Futures Trading Commission. We undertook
this review at the request of ten members of the Senate Committee on Banking, Housing, and
Urban Affairs. The request issued May 4,2011, and requested our response by June 13,2011.

        The four rules addressed: 1) the treatment of segregated funds of swaps customers; 2)
derivatives clearing organization risk management requirements; 3) swaps relationship
documentation requirements; and 4) core principles for swap execution facilities. Three of the
proposed rules were published in the Federal Register in January and February of this year. The
proposed rule addressing the treatment of segregated funds of swaps customers was issued by the
Commission in April 2011.

        In order to complete this review, we reviewed drafts of the cost-benefit analyses for the
four proposed rules, as well as staff e-mail and internal memoranda. In addition, we conducted
interviews with 28 CFTC employees at various staff and management levels who were involved
with the cost-benefit analyses processes for the four rules. Multiple interviews were conducted
with some employees.



                                                 8
Objectives and Methodology

       In this review we sought to examine six factors pertaining to the Agency's cost-benefit
analyses:

   A. The quantitative methodologies the agency uses to evaluate the costs and benefits
      of proposed rules and the effects those rules could have on job creation and
      economic growth;

   B. The qualitative methods the agency uses to categorize or rank. the effects of
      proposed rules;

   C. The extent to which the agency considers alternative approaches to its proposed
      rules;

   D. The extent to which the agency examines the costs, benefits, and economic impact
      of reasonable alternatives to its proposed rules;

   E. The extent to which the agency seeks public input and expertise in evaluating the
      costs, benefits, and economic impact of its proposed rules, and the extent to which
      the agency incorporates the public input into its proposed rules; and

   F. The extent to which the economic analysis performed by the agency with respect
      to its proposed rulemakings is transparent and the results are reproducible.


        In order to complete the investigation, we reviewed drafts of the cost-benefit analyses for
the four proposed rules, staff email, and internal memoranda. In addition, we conducted
interviews with 28 CFTC employees at staff and various management levels who were involved
(or were reported to us as involved) with the cost-benefit analyses processes for the four rules.

Summary of Findings and Recommendations

        Prior to publication of the four proposed rules, the Office of General Counsel and Office
of Chief Economist created a uniform methodology for cost-benefit analysis for use with all
proposed rulemakings under Dodd-Frank. That methodology set out in some detail the types of
qualitative considerations that might inform a cost-benefit analysis, encouraged the use of both
qualitative and quantitative data, and included a template for everyone to follow.

         While the methodology initially adopted by the Office of General Counsel and the Office
of Chief Economist would permit a detailed and thorough approach to the task, in the three
earlier rules we examined it appears the Commission generally adopted a "one size fits all"
approach to section 15(a) compliance without giving significant regard to the deliberations
addressing idiOSYncratic cost and benefit issues that were shaping each rule, and often addressed
in the preamble. In fact, although the development of a uniform methodology appeared to be an
equal effort between the Office of General Counsel and the Office of Chief Economist, at the
outset of the rulemaking efforts the cost-benefit analyses involved less input from the Office of

                                                 9
Chief Economist, with the Office of General Counsel taking a dominant role. For the three
proposed rules we reviewed that were published in January or February 2011, the cost-benefit
analyses were drafted by Commission staff in divisions other than the Office of Chief
Economist. In these earlier rulemakings, staff from the Office of Chief Economist did review the
drafts, but their edits were not always accepted. In one rulemaking, the Office of Chief
Economist did not participate at all.

        For the more recent cost-benefit analysis accompanying the proposed
segregation/bankruptcy rule, we were pleased with the cost-benefit discussion. Although staff
told us this rule was different with regard to cost considerations from the start, they also told us
the cost-benefit analysis section was influenced by concerns voiced this year regarding cost-
benefit analyses, including an earlier CFTC OIG report addressing cost-benefit considerations in
connection with Dodd-Frank rulemakings.

        With regard to the segregationlbankruptcy rule, the only deficiencies we detected, based
on our review, were somewhat minor. We noted both the lack of clarification of the role of
Paperwork Reduction Act costs in the context of the cost-benefit analysis, and the lack of
quantified costs to the Agency to implement the regulation. Because the Agency currently
includes with its budget requests amounts necessary to implement the Dodd-Frank Act, we
believe these costs could also be discussed in the context of Dodd-Frank rulemakings. We
believe internal Agency costs, including opportunity costs, are relevant because they may
influence the Commission's decisions when faced with regulatory alternatives.


2. An Investigation Regarding Cost-Benefit Analyses Performed by the Commodity
Futures Trading Commission in Connection with Rulemakings Undertaken Pursuant to
the Dodd-Frank Act

Background

      During the prior reporting period, we received a request from the Chairman of the House
Committee on Agriculture and from the Chairman of the House Subcommittee on General Farm
Commodities and Risk Management, for an investigation into cost-benefit analyses performed by
the CFTC in connection with four proposed rules under the Dodd-Frank Act:

    1. Further Defming "Swap Dealer", "Security-based Swap Dealer", "Major Swap
       Participant," "Major Security-based Swap Participant," and "Eligible Contract
       Participant, 75 FR 80174 (December 21,2010) (Joint proposed rule; proposed
       interpretations)4;

    2. Confirmation, Portfolio Reconciliation, Compression Requirements for Swap Dealers and
       Major Swap Participants, 75 FR 81519 (December 28,2010) (Notice of proposed
       rulemaking);

4The Commission published this proposed rule jointly with the Securities and Exchange Commission, in
consultation with the Board ofGovemors ofthe Federal Reserve System. 75 FR 80174 (December 21,2010).

                                                   10
   3. Core Principles and Other Requirements for Designated Contract Markets, 75 FR 80572
      (December 22,2010) (Notice of proposed rulemaking);

   4. Regulations Establishing and Governing the Duties of Swap Dealers and Major Swap
      Participants, 75 FR 71397 (November 23,2010) (Notice of proposed rulemaking).

Objectives and Methodology

     In addition to specifying four rules for examination, the Chairman of the House
Committee on Agriculture and the Chairman of the Subcommittee on General Farm
Commodities and Risk Management set out eight areas of specific inquiry to be addressed:

    I. The methodologies the CFTC uses to evaluate costs and benefits;

   2. Whether the sequence by which rules are proposed impacts the CFTC's ability to
      adequately evaluate costs and benefits;

   3. The extent to which, in light of budget constraints, the CFTC has sought outside input
      and expertise in evaluating costs and benefits;

   4. The extent to which the CFTC has evaluated and distinguished the costs and benefits of
      proposed regulations on market participants of diverse sizes and from diverse sectors.
      For example, did the CFTC give consideration to the costs and benefits a "Swap Dealer"
      designation would have for non-bank, non-financial companies in addition to large global
      financial institutions?

   5. The extent to which the CFTC gives special consideration to evaluating the costs and
      benefits for small businesses;

   6. The amount of time, on average, that Commission staff spends per rule evaluating costs
      and benefits as required by 15(a);

   7. When one proposed rule is highly dependent on another, as is often the case in Title VII,
      the extent to which the CFTC gives consideration to the impact preceding or subsequent
      rules may have on the costs or the benefits of the rule under consideration;
   8. The impact the current statutory deadline of Title VII has on the Commission's ability to
      conduct meaningful cost-benefit analysis and the extent to which an extension of the
      statutory deadline would improve the Commission's ability to consider the costs
      associated with proposed rules


        Because specific misconduct was not alleged and specific targets were not named, we
treated this as an administrative inquiry rather than a criminal investigation or an investigation
designed to support recommended adverse action against any individual.


                                                 II
        In order to complete the investigation, we reviewed drafts of the cost-benefit analyses for
the four proposed rules, staff email, and internal memoranda. In addition, we conducted
interviews with 24 CFTC employees at staff and various management levels who were involved
(or were reported to us as involved) with the cost-benefit analyses processes for the four rules.
We issued our report on April 15, 2011.

Summary of Findings and Recommendations

        We found that although the development ofa uniform cost-benefit analysis methodology
prepared in connection with the Dodd-Frank rulemakings appeared to be an equal effort between
the Office of General Counsel and the Office of Chief Economist, in practice the cost-benefit
analyses involved less input from the Office of Chief Economist, with the Office of General
Counsel taking a dominant role. For the four rules we reviewed, the cost-benefit analyses were
drafted by Commission staff in divisions other than the Office of Chief Economist. Staff from
the Office of Chief Economist did review the drafts, but their edits were not always accepted. To
a greater or lesser extent for the four examined rules, the Office of General Counsel appeared to
have the greater "say" in the proposed cost-benefit analyses, and appeared to rely heavily on an
historic (and somewhat stripped down) analytical approach. It appeared clear to us that a more
robust process was clearly permitted under the cost-benefit guidance issued by the Office of
General Counsel and the Office of Chief Economist, and we believed a more robust approach
would be desirable, with greater input from the Office of Chief Economist.

        Following issuance of our report, the Agency created updated guidance for cost-benefit
analyses for use with final rulemakings under Dodd-Frank. We note the updated guidance with
approval and continue to recommend that the Office of Chief Economist take on an enhanced or
greater role under both the existing methodology and any future methodologies for cost-benefit
analyses for both proposed and final rules under the Commodity Exchange Act.



       LEGISLATIVE, REGULATORY AND RULE REVIEWS

1.      Introduction and Summary

        As specified in Section 4(a)(2) of the Inspector General Act of 1978, OIG reviews the
impact of existing and proposed legislation and regulations on CFTC programs and operations
and makes recommendations regarding more effective or efficient alternatives or protections
against fraud and abuse. OIG also reviews exchange rule proposals circulated to senior staff at
CFTC.

        OIG notifies the responsible Divisions as to any concerns with draft and final documents
relating to legislation, rules (including exchange rules) or investigations. Initial discussions are
usually informal. The OIG actively monitors the proposed rules and regulations under
development as a result of Dodd-Frank Act. Formal comments were not submitted to the
Commission during this reporting period.


                                                 12
2.          Rule Reviews Initiated in Previous Reporting Periods

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.


3.          Rule Reviews Initiated this Reporting Period

            No rule reviews were initiated during this reporting period.

4.          Legislative Activities

       OIG tracked legislation impacting programs and operations of the CFTC and of the
Office of Inspector General, and made contact with Congressional staff concerning various
agency and IG issues as appropriate. The IG served on the legislation committee for the Council
of Inspectors General on Integrity and Efficiency, which comments on proposed amendments to
the IG Act and other legislation affecting the IG community.



                                        OTHER REVIEWS

        An important function in each Agency OIG is the peer review process~ The Inspector
General community's annual report, A Progress Report to the President, Fiscal Year 2007,S
described the processes for audits and investigative peer reviews as follows:

            Government Auditing Standards require that audit organizations conducting audits
            of Federal agencies undergo peer reviews every 3 years. The IG community has
            implemented a process to meet this requirement. The purpose of the peer review
            is to determine whether the reviewed audit organization's internal quality control
            systems are adequate and provide reasonable assurance that applicable auditing
            standards, policies and procedures are met.

            Similarly, investigative peer reviews are conducted to ensure compliance with the
            requirements of the Quality Standards for Investigations and determine whether
            adequate internal safeguards and management procedures exist to ensure that law
            enforcement powers are properly exercised. 6

      Section 989C of the Dodd-Frank Act implemented a requirement to include in each OIG
semiannual report an appendix containing




s http://www.ignet.gov/randp/fy07apr.pdf.
6   Id. at p.l9.

                                                    13
     •   the results of any peer review conducted by another Office of Inspector General during
         the reporting period; or if no peer review was conducted within that reporting period, a
         statement identifying the date of the last peer review conducted by another Office of
         Inspector General;

     •   a list of any outstanding recommendations from any peer review conducted by another
         Office of Inspector General that have not been fully implemented, including a statement
         describing the status of the implementation and why implementation is not complete; and

     •   a list of any peer reviews conducted by the Inspector General of another Office of the
         Inspector General during the reporting period, including a list of any outstanding
         recommendations made from any previous peer review (including any peer review
         conducted before the reporting period) that remain outstanding or have not been fully
         implemented.


In accordance with Section 989C of the Dodd-Frank Wall Street Reform and Consumer
Protection Act ("Dodd-Frank Act"), Pub. L. 111-203, 124 Stat. 1376 (2010), please be advised
that no peer review was conducted of the CFTC OIG during this reporting period. However,
during the prior reporting period, the Federal Election Commission Office of Inspector General
completed a peer review of CFTC 01G, as of March 31; 2011, that resulted in 35
recommendations for improving CFTC OIG's operations. As of September 30, 2011, CFTC OIG
had fully implemented all of the recommendations. CFTC OIG did not conduct any peer reviews
during this reporting period and there remain no outstanding recommendations from peer
reviews previously conducted by CFTC OIG.


2.       Other Reviews and Activities

         No other review activity took place during this reporting period.



             SUMMARY OF EACH REPORT MADE TO
         THE AGENCY HEAD CONCERNING REQUESTS FOR
                INFORMATION OR ASSISTANCE
        No reports were made to the Agency head under section 6(b)(2) concerning information
or assistance unreasonably refused or not provided (mandated under section 5(a)(5) of the Act).



                    REVISED MANAGEMENT DECISIONS
         No management decisions were revised during this reporting period.



                                                  14
                INSPECTOR GENERAL DISAGREEMENT
        The Inspector General did not disagree with any management decisions on OIG
recommendations during this reporting period. In 2006, the CFTC OIG issued a report titled
"Review of the Need for a Western Regional Office in Los Angeles." That report recommended,
among other things, that the Commi·ssion review the feasibility of reestablishing the former Los
Angeles field office. That recommendation was not carried out largely due to budget constraints.
In January 2008, partially in response to a Congressional inquiry, CFTC OIG updated its analysis
and on March 12, 2008, issued a follow-up report which reiterated the earlier recommendation.
In January 2009, the Acting Chairman issued a decision declining to implement the
recommendation generally due to cost considerations, but required the Agency on a yearly basis
to provide to OIG an analysis of regional case filing statistics and costs associated with cases in
various regions of the country. The Division of Enforcement submitted their yearly analysis to
OIG in March 2010. In light of increased funding for FY09, FYI0 and FY 11 (anticipated),
corresponding anticipated staffing increases and the enactment of legislation that expands CFTC
jurisdiction, we renew the recommendation that the Commission consider opening an additional
CFTC office on the West Coast.



                                      GAO LIAISON
        OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, reviews and evaluations regarding the economy, efficiency, and effectiveness of
CFTC programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audit, review and inspection activities identifies
the goals of each endeavor and the methods of reaching the goals so as to minimize the
requirements placed on CFTC resources.



                     STRATEGIC PLAN FOR THE
                 OFFICE OF THE INSPECTOR GENERAL
1.     Investigative Agenda.

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.


                                                15
        OIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. However, allegations and
complaints are also received from the general public and Congress. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because OIG
believed that an independent regulatory agency such as the CFTC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach OIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline phone number is (202)418-
5510.

        Because of the necessarily reactive nature ofOIG's investigative program, no
investigative agenda has been established.


2.     Legislative and Regulatory Review Agenda.

        Because of the importance of this activity in a financial and economic regulatory agency,
OIG reviews proposed and final CFTC regulations, legislation and selected exchange rules using
six basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be
addressed by the proposal; (2) has defined through case study or data analysis a clear link
between the proposed solution and the identified problem(s); (3) has specified clearly the means
to effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiven.ess of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long term; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because OIG does not initiate legislation or, generally, regulations, OIG legislative and
regulatory review program is reactive to the legislative and regulatory proposals developed by
others. Accordingly, no independent legislative and regulatory review agenda has been
established.

3.     Audit, Inspection, Evaluation and Review Agenda

a. Introduction

       The primary objectives of the OIG audit, inspection, evaluation and review agenda is to
promote long-term efficiency and effectiveness in the administration and operation of the
Commission and to protect against fraud and abuse. The audit, review, evaluation, and
inspection agenda and priorities for DIG are determined based on the following factors:


                                                 16
       •   Adequacy of internal control systems as indicated by vulnerability assessments and
           internal control reviews recommended by OMB Circular A-123;

       • . Changes in the program conditions or particular vulnerability of the organization,
           program, activity, or function to problems or deficiencies;

       •   Current and potential dollar magnitude and likely benefits of a review on the
           efficiency or effectiveness of CFTC programs and operations;

       •   Management priorities and improvements that may be possible;

       •   Results of audits of CFTC programs and operations by other Federal agencies; and

       •   Availability of audit resources and the potential opportunity costs to the agency.


b. Annual Audit

       The following required audit is performed on an annual basis.

Audit of CFTC Financial Statements

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, OIG has engaged a contractor to provide the audit effort required to
enable the contractor to render an opinion on the agency's financial statements for each fiscal
year in accordance with generally accepted auditing standards, Government Auditing Standards
and OMB Bulletin 07-04.

c. Annual Review and Evaluation

       We will perform the following review and evaluation on an annual basis:

Review of Compliance with the Federal Managers' Financial Integrity Act, FMFIA

       In support of OMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

Evaluation of the CFTC Information Security Management Act, FISMA

        The Federal Information Security Management Act requires the Inspector General or his
designee to perform annual independent evaluations of the information security program and
practices of the agency.


                                                17
 d. Other Audits. Inspections, Evaluations, Reviews and Projects

        Looking to the long term, the DIG intends to focus the balance of its resources on the
 review of the management and operation of the agency and compliance with Congressional
 mandates. DIG plans to concentrate its efforts in reviewing activities relating to the most serious
 management challenges facing the CFTC.

         In addition, DIG is aware of the immense regulatory undertaking required under the
 Dodd-Frank Act. DIG will seek to identify issues and to conduct inspections, reviews,
 investigations and other activities relating to these management and regulatory challenges.
 Finally, DIG will stand ready to respond to issues and requests as they are received from
 Congress, the Agency and merrlbers of the public or any other source.

 At the close of the last reporting period, DIG reported that a previously intended examination of
 communications between CFTC staff and large traders had been tabled due to our workload
 during this prior reporting period. This review continues to be tabled.


 e. Resources Required

         OIG estimates that approximately one staff year of effort will be devoted over each of the
 next five years to the annual audit, the annual review, and the annual evaluation described above.
 However, DIG is updating its audit universe in view ofCFTC's increased responsibilities under
 the Dodd-Frank Act and will reevaluate its staffing needs once the update is complete. Revision
 of the CFTC DIG audit procedures and other remediation-related tasks, and all other
 investigations, inspections, evaluations, review and other projects will consume up to two and a
 half staff years. Because DIG resources can be diverted at any time to an investigation or audit,
 inspection, evaluation, review or project that responds to current concerns or allegations, and
 must be completed in a timely fashion in order to be of assistance to the Agency or Congress, it
 is impossible to forecast with complete accuracy how resources will be utilized from year to
 year. In accordance with a recommendation contained in the recent peer review, we have hired
 an experienced auditor to assist with remediation and supervise all audit activity, including audits
 performed by independent public accountants obtained on a contract basis. Due to staff size, we
 will continue to utilize outside independent auditors to perform DIG audits as necessary.



                         CONTACTING THE OFFICE OF THE
                             INSPECTOR GENERAL

          DIG is located at 1155 21st Street, N.W., Washington, D.C. 20581. Regular business
. hours are between 8:30 AM and 5:00 PM, Monday through Friday, except Federal holidays. The
  telephone number is (202)418-5110. The facsimile number is (202)418-5522. The hotline
  number is (202)418-5510. The DIG web page is located at:
  http://www.cftc.gov/AboutlOfficeofthelnspectorGeneraUindex.htm.


                                                  18
                                              Table 1
                                 Reports Issued with Questioned Costs
                                 (April 1, 2011- September 30,2011)

                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
C.   For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     (ii)     dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                              19
                                              Table 2
                             Reports Issued with Recommendations
                                That Funds be Put to Better Use
                              (April 1, 2011- September 30,2011)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o             o
B.   Which were issued during the reporting
     period                                          o             o
     Subtotals (A + B)                               o             o
c.   For which a management decision was
     made during the reporting period                o             o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o             o
     (ii)     dollar value of
              recommendations that
              were not agreed to by
              management                             o             o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o             o




                                              20
             THE INSPECTOR GENERAL
             NEEDS YOUR HELP TO ASSlTRE
             THE INTEGRITY OF CFTC'S
             PROGRAMS AND OPERATIONS.



Report FRAUD, WASTE or ABUSE
         in connection wit11
 CFTC Programs and Operations
      to the Office of the
   INSPECTOR GENERAL.

You may report ANONYMOUSLY.

    HOTLINE
    (202) 418-5510
    Office of the Inspector General
    Commodity Futures Trading Commission
    1155 21ST Street, N.W.
    Washington, D.C. 20581
